PENSION BENEFIT GUARANTY CORPORATION




  SEMIANNUAL REPORT
   TO THE CONGRESS




  OFFICE OF INSPECTOR GENERAL


      APRIL 1, 1998 - SEPEMBER 30, 1998
                                                                        Office of Inspector General

                                                                              October 31, 1998



Alexis Herman
Chairman, PBGC Board of Directors

       It is my pleasure to submit this nineteenth semiannual report to the Congress. This
report summarizes the major activities and accomplishments of the Office of Inspector
General (OIG) for the six-month period ending September 30, 1998. Our accomplishments
were made possible by the dedicated efforts of a committed and professional staff.

        Our work this reporting period has resulted in significant operational benefit to
PBGC. Our efforts were directed to increased economy, efficiency, and quality of PBGC's
operations and combating actual or potential occurrences of waste, fraud, and misuse of
Government funds. My office issued five (5) reports in the audit area. The audits include
an evaluation of PBGC’s expenditure of appropriated funds for food, entertainment and
mementos, an evaluation of the electronic document archival and retrieval system for
pension plan and participant documents, and an audit of responses to certain questions
relating to appeals of PBGC’s initial determinations requested by a congressional committee.

        In the investigative area, we opened eight (8) and closed twenty-four (24)
investigations. We operate a post office box and "1-800" Hotline which continues to
receive calls and mail primarily from pension plan participants. Seventy-nine percent
(79%) of these were "first-time" contacts that were referred directly to the agency for
customer assistance. As we have stated for the past five (5) years, the need for an
additional federal employee investigator remains mission critical. The use of contract
investigators fails to fully address our needs. We continue to raise these resource concerns
to agency management. Finally, we note that PBGC has reversed its past practice of
referring allegations of fraudulent waivers of spousal benefits it receives from participant’s
spouses to the OIG for investigation. Over OIG objections, PBGC has determined that
program personnel will investigate these alleged criminal activities.

        The results achieved by the OIG were enhanced by the support of PBGC’s Executive
Director, managers, employees, and the Congress. I look forward to continuing the
productive professional working relationship as we strive to maintain the highest levels of
integrity and quality in the Corporation's programs and operations, and helping PBGC meet
its important challenges.


                                             Sincerely,



                                             Wayne Robert Poll
                                             Inspector General


Enclosure
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




EXECUTIVE SUMMARY
This is the nineteenth semiannual report to the Congress summarizing the activities and
accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector
General (OIG) for the period April 1, 1998 through September 30, 1998. Our efforts were
directed toward performing audits, inspections, and evaluations of the Corporation's programs
and operations, conducting several large and complex investigations, and providing technical
assistance and advice on Corporate programs. In the audit area, we issued five (5) reports,
including an:

       • evaluation of PBGC’s expenditures of appropriated funds for food, entertainment and
         mementos (see page 2);

       • evaluation of the Image Processing System, an electronic document archival and
         retrieval system (see page 2);

       • audit of responses to certain questions about appeals of PBGC’s intial determinations
         asked by the Senate’s Special Committee on Aging (see page 3).

In the investigative area, we opened eight (8) new investigative cases during the reporting
period, and closed twenty-four (24) cases. The cases closed this period included:

       • mispresentation by contractors on employment applications that PBGC was their
         employer (see page 10); and

       • misrepresentation of experience and qualifications on SF-171(see page 10).

We are also reporting that PBGC has determined that it will now conduct investigiatons into
allegations of fraudulent waivers of spousal benefits (see page 9). In the past, when PBGC
received an allegation from a pension plan participant’s spouse that he/she had not signed the
waiver of benefits form, that allegation was referred to the OIG for investigation. Investigation
into alleged criminal activity is vested in the OIG, not the agency, and we will vigorously
pursue this encroachment into our statutory mission.




                                                i
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                               PENSION BENEFIT GUARANTY CORPORATION




TABLE OF CONTENTS
               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY ....................................................................                i

               TABLE OF CONTENTS.......................................................................              ii

               LIST OF TABLES ................................................................................       iii

               INTRODUCTION..................................................................................        1

                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ............................................................................         2

                         Overview
                         Audits and Evaluations
                         Audit Follow-up and Resolution
                         Access to Information
                         PBGC Management - Inspector General Disagreements

               INVESTIGATORY ACTIVITIES .........................................................                    8

                         Overview
                         Activity This Period
                         Significant Investigations

               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES .............                                            12

                         Review of Proposed Statutory and Regulatory Changes
                         OIG and Agency Consultation
                         Liaison With the United States General Accounting Office
                         Peer Review
                         Strategic Planning



               GLOSSARY...........................................................................................   19




                                                              ii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                  PENSION BENEFIT GUARANTY CORPORATION




LIST OF TABLES
       TABLE 1 - INSPECTOR GENERAL ISSUED REPORTS .........................................       5

       TABLE 2 - REPORTS ISSUED WITH QUESTIONED COSTS ...............................             6

       TABLE 3 - REPORTS ISSUED WITH RECOMMENDATIONS
                  THAT FUNDS BE PUT TO BETTER USE ...........................................     7

       TABLE 4 - STATISTICAL TABLES OF INVESTIGATIONS ...................................         11

       TABLE 5 - CROSS-REFERENCE TO REPORTING REQUIREMENTS
                  OF THE INSPECTOR GENERAL ACT.................................................   18




                                                   iii
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




INTRODUCTION
THE PENSION BENEFIT GUARANTY CORPORATION

     The Pension Benefit Guaranty Corporation (PBGC) was established under Title
     IV of the Employee Retirement Income Security Act of 1974 (ERISA), as amended,
     5 U.S.C. §§ 1301-1461, as a self-financing, wholly-owned Federal Government
     Corporation to administer the pension insurance program. ERISA requires that
     PBGC (1) encourage the continuation and maintenance of voluntary private
     pension plans; (2) provide for the timely and uninterrupted payment of pension
     benefits to participants and beneficiaries; and (3) maintain premiums at the
     lowest level consistent with carrying out PBGC's obligations.

     For about 42 million Americans, the PBGC provides assurance that their
     retirement benefits are safe now and for the future. The PBGC protects the
     pensions of participants in certain defined benefit pension plans, i.e., plans that
     promise to pay definitely determinable retirement benefits. Such defined benefit
     pension plans may be sponsored individually or jointly by employers and by
     unions. Currently, there are nearly 206,000 participants receiving benefit
     payments from PBGC. Additionally, in its fiscal year 1997 Financial Statement,
     the PBGC reported that it has assets of $15.9 billion and liabilities of $12.2
     billion.


THE OFFICE OF INSPECTOR GENERAL
     One of the strategic goals of the OIG is to assist the PBGC in operating more
     efficiently and effectively by identifying ways to improve the PBGC's programs.
     To accomplish this goal, the OIG conducts agency audits, inspections, and
     investigations, and makes recommendations to PBGC management. In addition,
     the OIG is required statutorily to inform the agency head of fraud and other
     serious problems, abuses, and deficiencies relating to the programs and
     operations administered or financed by the PBGC, recommend corrective action
     concerning such problems, and report on the progress made in implementing
     corrective actions.

     The OIG staff consists of eleven (11) employees, of which two are investigators. A
     third investigator remains a mission critical need. We continue to accomplish
     our investigative program through the use of contract investigators, being
     mindful that conducting criminal investigations is an inherently governmental
     function.

     The Chief Financial Officers Act (CFO Act) requires that a government
     corporation's financial statements be audited by the Inspector General, unless
     preempted by GAO. The OIG contracted for an Independent Public Accountant
     (IPA) to perform the audit of the Corporation’s FY 1998 financial statements.




SEPTEMBER 1998                                                               PAGE 1
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




AUDIT ACTIVITIES
OVERVIEW
     The OIG provides independent analyses to management on a full range of
     PBGC's operations including programs, activities, functions, and funds. The
     OIG has full discretion in establishing audit objectives, plans, and priorities.
     During this reporting period, the OIG issued five (5) reports (see TABLE 1) to help
     PBGC reduce costs and strengthen management controls. Below is a summary
     of those reports. Our audits comply with the United States General Accounting
     Office’s Government Auditing Standards, while the inspections comply with
     quality standards for inspections published by the President's Council on
     Integrity and Efficiency.


AUDITS AND EVALUATIONS

     EVALUATION OF PBGC APPROPRIATION
     EXPENDITURES FOR FOOD,
     ENTERTAINMENT AND MEMENTOS
     (98-5/23115)
     As a result of several OIG investigations which found PBGC employees had
     improperly spent appropriated funds for food, we initiated an audit to review
     agency expenditures for food, entertainment and mementos for the period
     October 1, 1994 through June 30, 1996. The expenditures were evaluated in
     relation to applicable laws, regulations, and Comptroller General guidance to
     determine if they were proper uses of appropriated funds. PBGC reported
     expenditures, totaling $30,825, for food, entertainment and mementos in
     conjunction with 37 functions that PBGC employees and others attended during
     the period of our audit. We evaluated the propriety of these expenditures and
     questioned $17,121 (56% of the total dollar amount audited).


     EVALUATION OF THE
     IMAGE PROCESSING SYSTEM
     (98-7/23118)
     PBGC uses a graphic imaging system, known as the Image Processing System
     (IPS), to store, process, transmit, manage, and control pension plan and
     participant information. IPS is an electronic equivalent of the paper systems
     traditionally used at PBGC, and was implemented to provide an electronic
     alternative for document archival and retrieval. We evaluated the control
     environment implemented by PBGC for IPS. In addition, we obtained an
     understanding of IPS operations that prepared us for testing key controls related
     to data capture, scanning, indexing, verification, logical access, and contingency
     planning. Our evaluation identified processing control conditions that PBGC
     should strengthen.




SEPTEMBER 1998                                                               PAGE 2
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




     AUDIT OF PBGC's RESPONSE T0 CERTAIN
     QUESTIONS CONCERNING APPEALS OF
     PBGC INITIAL DETERMINATIONS OF
     PENSION BENEFITS
     (98-10/23131)
     The Honorable Charles E. Grassley, Chairman of the Special Committee on Aging
     of the United States Senate, asked the OIG to review certain aspects of the PBGC
     appeals process: (1) the number of appeals docketed yearly; (2) the number of
     appeals pending at the end of each fiscal year; and (3) the number of appeals
     granted in favor of the participant or upholding the PBGC's initial decision. The
     OIG asked the Corporation to respond to these questions, which it did in a
     memorandum, "Review of Benefit Determination and Appeals Process -- Schedule
     of Appeals."     The memorandum presented certain statistical assertions
     concerning appeals pending at Fiscal Year (FY)-end 1995, and docketed, closed
     and pending for FYs 1996 and 1997.

     With respect to the third question, PBGC informed us that they had not kept
     statistical information to track whether appeal decisions were favorable or
     unfavorable to participants but were in the process of implementing a new
     system which would permit them to report this information. In order to respond
     to the question for appeals closed during FY 1997, PBGC advanced their
     timetable for system implementation.

     The OIG performed an audit of the assertions contained in PBGC's
     memorandum. As a result of our testing, we concluded that PBGC's assertions,
     as summarized in its memorandum, were fairly presented.


     CONTINUING CONGRESSIONAL REVIEWS
     In August of 1997, the Honorable Charles Grassley, Chairman of the Special
     Committee on Aging of the United States Senate (Committee), asked the OIG to
     address certain questions regarding Initial Determination Letters (IDLs).
     Specifically, the Committee is concerned with the amount of time it takes PBGC
     to issue IDLs. The OIG was asked to conduct a multi-year review of PBGC’s IDL
     process to include the following:

     •   An evaluation of the efficiency and effectiveness of PBGC’s process to issue
         IDLs.
     •   The length of time it takes PBGC to issue an IDL.
     •   The effect of such delays upon individuals awaiting IDLs.
     •   The number of appeals filed yearly, the number of appeals pending at the end
         of each fiscal year and the number of appeals granted in favor of the
         participant or upholding the PBGC’s initial determination.




SEPTEMBER 1998                                                             PAGE 3
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION



AUDIT FOLLOW-UP AND RESOLUTION

     The audit follow-up system at PBGC is integral to effective management and is a
     shared responsibility of PBGC management and the OIG. PBGC has established
     an audit follow-up system to document management's actions and assure
     prompt resolution of audit recommendations. Moreover, this OIG system
     provides for a record of actions taken by PBGC management on OIG and GAO
     recommendations.

     The Office of Management and Budget (OMB) Circular A-50 requires that audit
     recommendations be resolved within six (6) months of issuance. The OMB
     guidance provides that audit recommendations are resolved when Agency
     management and the OIG reach agreement on firm plans of action to correct
     reported weaknesses.      Resolution, however, does not mean an audit
     recommendation is closed. The OIG closes audit recommendations only when
     corrective actions have been completed by the Agency.

     The OIG issued the Semiannual Listing of Audit Recommendations (98-9/32089)
     which contained eighty-five (85) audit recommendations of which sixty-six (66)
     were outstanding audit recommendations from the prior reporting period. Of
     these open audit recommendations, the OIG’s Semiannual Report on Follow-up of
     Audit Recommendations (98-11/32090) reported nine (9) audit recommendations
     that agency management represented as closed and in which the OIG concurred.
     Seventy-six (76) audit recommendations remained open on September 30, 1998.


ACCESS TO INFORMATION
     Under the Act, the Inspector General is to have unfettered access to all agency
     records, information, or assistance when engaged in an investigation or audit.
     Whenever access to requested records, information or assistance is
     unreasonably refused or not provided, the Inspector General must promptly
     report the denial to the Agency Head. During this six-month reporting period,
     the Inspector General’s access to information was not restricted.


PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS
     Semiannually, the OIG must report the status of all unresolved audit reports
     that are more than six months old to the Agency Head. These reports include:
     (1) reason(s) for unresolved reports and a timetable for their resolution; (2)
     actions taken or proposed on all unresolved reports or recommendations; and (3)
     age of unresolved recommendations. For this reporting period, there were no
     unresolved audit reports in which PBGC management decisions are pending.




SEPTEMBER 1998                                                           PAGE 4
         SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                PENSION BENEFIT GUARANTY CORPORATION




                                             TABLE 1

                        INSPECTOR GENERAL ISSUED REPORTS
                           For The Six-month Period Ending
                                SEPTEMBER 30, 1998

                                                        DOLLAR        DOLLAR        DOLLAR
                                                       VALUE OF      VALUE OF      VALUE OF
REPORT                                      DATE      QUESTIONED      BETTER     UNSUPPORTED
NUMBER             REPORT TITLE            ISSUED       C OSTS      USED FUNDS      C OSTS

Audits

98-5/       Evaluation of PBGC             9/30/98      $17,121         -0-           -0-
23115       Appropriation
            Expenditures for Food,
            Entertainment and
            Mementos
98-10/      Audit of PBGC’s Response       9/29/98        -0-           -0-           -0-
23131       to Certain Questions
            Concerning Appeals of
            PBGC Initial
            Determinations of Pension
            Benefits

Evaluations

98-7/       Evaluation of the Image        6/10/98         -0-           -0-           -0-
23118       Processing System
98-8/       Peer Review of the Office of    6/9/98         -0-           -0-           -0-
23130       Inspector General at the
            Legal Services Corporation
98-9/       Semiannual Listing of Audit     7/31/98        -0-           -0-           -0-
32089       Recommendations
98-11/      Semiannual Report on            9/30/98        -0-           -0-           -0-
32090       Follow-up of Audit
            Recommendations




SEPTEMBER 1998                                                                      PAGE 5
         SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION BENEFIT GUARANTY CORPORATION




                                                  TABLE 2      *


                        REPORTS ISSUED WITH QUESTIONED COSTS
                            For The Six-month Period Ending
                                 SEPTEMBER 30, 1998


                                                              NUMBER
                                                                   OF          QUESTIONED      UNSUPPORTED
                                                             REPORTS             C OSTS           C OSTS

 A.   For which no management decision has
      been made by the commencement of the
      reporting period                                             0                -0-            -0-

 B.   Which were issued during the reporting
      period                                                       1             $17,121           -0-

      Subtotal ( Add A & B)                                        1             $17,121           -0-

 C.   For which a management decision was
      made during the reporting period                             1             $17,121           -0-

      (i)       dollar value of disallowed costs                   1             $17,121           -0-

      (ii)      dollar value of costs not
                disallowed                                         0                -0-           - 0-

 D.   For which no management decision has
      been made by the end of the reporting
      period                                                       0                -0-            -0-

 E.   Reports for which no management
      decision was made within six months of
      issuance                                                     0                -0-            -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




SEPTEMBER 1998                                                                                   PAGE 6
         SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION BENEFIT GUARANTY CORPORATION




                                                  TABLE 3      *


                        REPORTS ISSUED WITH RECOMMENDATIONS
                           THAT FUNDS BE PUT TO BETTER USE
                             For The Six-month Period Ending
                                  SEPTEMBER 30, 1998


                                                                                 NUMBER
                                                                                    OF          DOLLAR
                                                                                 REPORTS        VALUE

 A.   For which no management decision has been made by
      the commencement of the reporting period                                       0            -0-

 B.   Which were issued during the reporting period                                  0            -0-

      Subtotal ( Add A & B)                                                          0            -0-

 C.   For which a management decision was made during the
      reporting period                                                               0            -0-

      (i)         dollar value of recommendations that were
                  agreed to by management                                            0            -0-

             --   based on proposed management action                                0            -0-

             --   based on proposed legislative action                               0            -0-

      (ii)        dollar value of recommendations that were not
                  agreed to by management                                            0            -0-

 D.   For which no management decision has been made by
      the end of the reporting period                                                0            -0-

      Reports for which no management decision was made
      within six months of issuance                                                  0            -0-

                    .




* This statistical information is required by the Inspector General Act of 1978, as amended.




SEPTEMBER 1998                                                                                  PAGE 7
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL              PENSION BENEFIT GUARANTY CORPORATION



             .

INVESTIGATORY ACTIVITIES
OVERVIEW
             The Inspector General is authorized to receive and investigate complaints
             from PBGC employees, the public, and other sources concerning the
             possible existence of an activity constituting a violation of law, rule, or
             regulation; mismanagement; gross waste of funds; abuse of authority; or
             a substantial and specific danger to the public health and safety.
             Individuals may disclose information or make complaints to the Inspector
             General through the OIG "Hotline." (See announcement on back cover
             page.) The Inspector General has a policy to protect the legal rights of
             whistleblowers and complainants. At all times, the Inspector General
             takes reasonable precautions not to disclose the identity of the
             complainant without that person's consent.

             When we receive an allegation, we review it to determine its sensitivity
             and need for immediate OIG investigation, whether it has a lower
             priority, or whether it can be referred to the agency for review and
             corrective action. Allegations designated as priority receive immediate
             attention. Generally, these investigations use more time and resources,
             often requiring a team approach. To meet these challenges, the OIG has
             undertaken many strategies to responsibly investigate allegations that
             are brought to us, including hiring former federal investigators as
             contractors. Even with these additional contract resources, we have had
             to cease investigation activities and close some cases administratively.
             Though we have systematically reduced our investigative caseload, we
             are still faced with the inability to investigate allegations timely, which is
             unacceptable to us. A third investigator remains mission critical and
             would result in cost savings to the Corporation through reduction in
             contract expenditures.


ACTIVITY THIS PERIOD
             The OIG received 8 complaints or allegations, and closed 24 investigative
             cases during the reporting period. As of September 30, 1998, 33 cases
             remain open (see Table 4 for investigative program statistics).

     OIG HOTLINE
             The OIG operates a separate "1-800" hotline telephone number and a
             post office box. The Hotline telephone is answered by an investigative
             staff assistant for a two hour period, Monday through Friday; at all other
             times there is a message that provides information about the Hotline
             service. For the period April 1, 1998 through September 30, 1998, we
             received a total of 27 Hotline inquiries.

             From our intake analysis, 79% of the contacts were first-time inquiries
             relating to pension benefit questions, which were referred to the agency
             for action. We did not open any cases from our Hotline contacts this
             period.




SEPTEMBER 1998                                                                 PAGE 8
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION



     OIG PROACTIVE EFFORTS
     TO REDUCE PENSION FRAUD
             The OIG continues to work with agency personnel to identify and
             prevent instances in which fraud occurs in the payment of pension
             benefits. In May, 1998, we presented a briefing on pension fraud issues
             at a PBGC conference of employees and contractors. This conference was
             an opportunity for the OIG to meet with people who process pension
             benefit payments, and to present indicators useful in identifying pension
             fraud situations, an overview of successful prosecutions, and agency
             actions that can be taken to minimize the potential for misappropriation
             of pension benefits.

             As a result of a prior investigation, we had reported to PBGC that a
             participant had engaged in fraud and received more than $60,000 in
             pension benefits to which he was not entitled. Because the fraudulent
             representation was made to the pension plan prior to its termination and
             not to PBGC, the U.S. Attorney’s Office declined prosecution. We have
             worked with agency officials since the case was closed to determine how
             to collect the overpaid amount.        During this period, the agency
             determined that it could withhold the participant’s future benefits in
             their entirety and thus, recoup the overpayment.

     AGENCY TO INVESTIGATE FRAUD
     OVER OIG OBJECTIONS
             We must report that we could not reach agreement with the agency
             involving allegations of fraudulent waivers of spousal benefits. Under the
             law, a pension plan participant who is married must be given a joint and
             survivor benefit unless his spouse consents in writing to waive his/her
             entitlement to the benefit. PBGC’s past practice was to refer to the OIG
             for investigation any potential allegations of fraud, including allegations
             from spouses that they did not execute the waiver that PBGC had in its
             files, including obtaining independent handwriting analysis from
             experienced government experts. The agency issued a policy, without
             OIG consultation, that changed this practice and assigned responsibility
             to investigate the alleged fraud to inexperienced program personnel. The
             OIG met with appropriate senior level officials to express our concerns
             about this unexpected policy change. Over the OIG’s objections, the
             agency issued an amended policy statement but left unchanged its
             decision to conduct the spousal waiver fraud investigation.

             Fraud is a crime and authority to conduct investigations into alleged
             criminal activity is vested solely in the OIG or other federal law
             enforcement entity. In addition, the OIG is an independent, neutral
             investigator. By conducting the fraud investigation itself, the agency
             could be open to conflict of interest allegations or other serious risk
             exposures. We intend to vigorously pursue this encroachment into the
             OIG’s statutory mission.




SEPTEMBER 1998                                                               PAGE 9
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION



SIGNIFICANT INVESTIGATIONS

             POSSIBLE MISREPRESENTATION OF
             EMPLOYMENT ON APPLICATIONS

             While conducting another investigation, it came to the OIG’s attention
             that contractors who worked at PBGC might be misrepresenting their
             employment status when applying for jobs. A misrepresentation of an
             application for federal employment is a violation of 18 U.S.C. § 1001. We
             reviewed forty-two (42) applications and found that in twenty-five (25)
             instances that contractor employees falsely listed PBGC as their
             employer, rather than the contractor, and sometimes even listed a PBGC
             employee as their supervisor. This practice of allowing contractors to
             misrepresent their employment status could have spill-over effect into
             other areas, such as applications for outside employment or credit. We
             made several suggestions for improvement to management, including a
             more careful review of applications and rejection of those that incorrectly
             list PBGC as the employer, and proactive steps to remind contractors that
             they may not list PBGC as their employer.

             POSSIBLE MISREPRESENTATION
             ON STANDARD FORM 171

             The OIG conducted an investigation into whether a PBGC employee had
             made false statements on their Standard Form (SF) 171.             A false
             statement on an SF-171 is a violation of 18 U.S.C. § 1001. We concluded
             from our investigative work and documented evidence that the employee
             did, indeed, made false statements in the SF-171, including
             misrepresentations about experience, job responsibilities, job titles, and
             awards and recognition received. We also concluded that the employee
             made false statements during official investigations, including interview
             statements, Affidavits, and false accusations about OIG investigators’
             conduct.




SEPTEMBER 1998                                                               PAGE 10
         SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION BENEFIT GUARANTY CORPORATION




                                                    TABLE 4

                          STATISTICAL TABLES OF INVESTIGATIONS
                              For The Six-month Period Ending
                                   SEPTEMBER 3O, 1998


CASE LOAD

                   Pending beginning of period                                                 49
                   Opened this period**                                                         8
                   Closed this period                                                          24
                   Pending end of period ***                                                   33


WRONGDOING ALLEGED (CASES OPENED)

                   Fraud, Waste & Abuse                                                        5
                   Wrong Doing                                                                 1
                   Theft                                                                       2
                   Improprieties Relating to Pension Benefits                                  0
                   Customer Service Problems                                                   0


RESULTS OF CASES CLOSED

                   Allegation disproved or not substantiated                                   5
                   Referred to agency for corrective action                                    5
                   Prosecutions & Civil Settlements                                            0
                      Monetary recovery
                   Prosecution declined; referred for agency                                   1
                       disciplinary action
                   OIG Customer Assistance                                                      1
                   Referred to OIG Audit                                                        1
                   Administrative Closings                                                     11


HOTLINE AND MAIL INQUIRIES

                   Received this period                                                        29

                            First time caller referrals to agency                   23
                            Mail referrals to agency                                 2
                            OIG Customer Assistance                                  4
                            Cases opened                                             0




** Of the eight new cases opened this period, none resulted from Hotline and mail inquiries.


*** Twenty-eight of the thirty-three investigative cases that are open are from prior reporting periods.



SEPTEMBER 1998                                                                                        PAGE 11
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




OTHER OFFICE OF INSPECTOR
GENERAL ACTIVITIES
REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

             To comply with the IG Act, the OIG Legal Counsel is notified by the Office
             of the General Counsel when the agency is proposing legislative and
             regulatory changes. During this period, we reviewed and commented on
             two proposed amendments to regulations.



OIG AND AGENCY CONSULTATION

             The OIG engaged in several activities this period that included
             coordination with agency officials to make PBGC a better place to work.

             •   The Deputy IG worked on a team to plan and implement a Violence in
                 the Workplace Policy for PBGC. Part of that effort was an agreement
                 to establish an early response team comprised of various PBGC
                 employees, including OIG, to quickly respond to and investigate
                 claims of workplace violence.

             •   As a result of the audit of expenditures of appropriated funds for food,
                 entertainment and mementos (see page 2), we are working with the
                 Office of the General Counsel to draft guidance regarding proper
                 expenditures to be issued to PBGC employees.

             •   We are participating on a multi-department team to assess PBGC’s
                 compliance with Year 2000 issues.



LIAISON WITH THE UNITED STATES
GENERAL ACCOUNTING OFFICE
             There is no on-going work of GAO involving PBGC at this time.


PEER REVIEW
             As a member of the Executive Council on Integrity and Efficiency, the OIG
             was requested to perform a peer review of the Office of Inspector General
             for another agency. The objectives of this peer review were to determine
             whether the organization’s: (1) quality control system for audits was
             adequate, in place, and operating effectively; and (2) established policies,
             procedures, and applicable auditing standards were being followed in its
             audit work.




SEPTEMBER 1998                                                                PAGE 12
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION



STRATEGIC PLANNING

             The Office of Inspector General (OIG) uses strategic planning techniques
             to identify and address functional risks faced by the Corporation. These
             techniques allow us to maximize our effectiveness with limited resources
             by focusing on those areas most critical to organizational success. This
             planning is performed at two levels: first, by identifying the most critical
             functional areas; and second, by examining specific risks affecting
             Corporate operations. This planning effort is then used to select areas for
             specific OIG audits. The OIG has identified five critical risk issues using
             our strategic planning process. Accordingly, these critical risk issues,
             listed and discussed below, have been addressed during the past year and
             will continue to be addressed by audit or investigative action during this
             and future fiscal years. When practicable, we have designed audit and
             evaluation projects to include multiple high risk areas.

             •   Procurement of and Performance by Contractors
             •   Pension Liabilities
             •   Systems Integration
             •   Integrity of Payment and Premium Systems
             •   Asset Management

             This report summarizes activities conducted during FY 1998 (October 1,
             1997 through September 30, 1998) and references work reported in this
             semiannual report and the prior report covering the period from October
             1, 1997 - March 31, 1998.


     SUMMARY OF RISK AREAS AND
     SIGNIFICANT OIG ACTIVITIES

             Procurement of and Performance
             by Contractors
             PBGC currently uses a large number of contractors throughout the
             corporation, which poses unique risks permeating virtually every aspect
             of PBGC's business. It is essential that proper controls be in place and
             functioning to ensure procurement policies are followed and contractor
             performance is properly monitored. The OIG has reviewed this function
             in the past and will continue to examine related areas.

                 FY 1998 Activity. During the audit of PBGC’s financial statements
                 (98-3/23126-2), we reviewed selected contractor performance by
                 testing compliance with PBGC’s policies and procedures.

                 Projected FY 1999 Activity.            We plan to assess PBGC’s
                 procurement function to identify issues that remain high risk. Based
                 on the assessment, we intend to review selected contractor
                 performance issues.




SEPTEMBER 1998                                                               PAGE 13
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION



             Pension Liabilities
             The primary areas of focus will include accuracy and timeliness of the
             pension liabilities components. The accuracy issue will address whether
             all components of the liability have been considered and whether factors
             used for each component are supported with sufficient detail and that
             data are correct. This area has been raised in earlier OIG and GAO
             reports and will be monitored to ensure progress is made and deficiencies
             overcome.

             With respect to timeliness, it is essential that PBGC calculate the amount
             due individual plan participants in a timely manner. This area has
             negative implications to both participants and PBGC, as pension benefit
             payments may be inaccurate until this process has been completed, and
             overpayments may become uncollectible.

                 FY 1998 Activity.

                 •   As part of the financial statement audit, the OIG examined
                     PBGC’s calculation of the present value of future benefits (PVFB)
                     for terminated plans (see OIG Report October 1, 1997 - March 31,
                     1998, page 2-3, 98-3/23126-2) which includes reviewing the
                     components related to the PVFB. Our review disclosed that PBGC
                     made improvements in maintaining participant file data.

                 •   The OIG reviewed the Image Processing System (IPS) (see page 2,
                     98-7/23118). PBGC uses this system to capture and maintain
                     participant and plan data which is used in calculating the PVFB
                     liability. IPS was implemented to provide an electronic alternative
                     for document archival and retrieval. The ultimate goal of IPS was
                     to improve benefits administration and the delivery of services to
                     participants by allowing faster response to inquiries from
                     participants. Our evaluation disclosed that controls should be
                     strengthened.

                 •   The Participant Records Information Systems Management
                     (PRISM) was developed by PBGC as participant database system.
                     PRISM       incorporates  participant   information    including
                     demographic, benefit payment and valuation data. The valuation
                     data and participant demographic data are used to value the
                     PVFB liability. The OIG conducted a survey of the system to gain
                     a general understanding and to formulate a strategic audit
                     approach. We have initiated an audit which addresses (1) the
                     adequacy of controls associated with data conversion and
                     performed between PRISM and its predecessor system, and (2) data
                     integrity issues.

                 •   In response to the Congressional inquiry regarding IDLs, we
                     conducted a review of (1) the number of appeals docketed yearly;
                     (2) the number of appeals pending at the end of each fiscal year;
                     and (3) the number of appeals granted in favor of the participant
                     or upholding the PBGC's initial decision (see page 3, 98-
                     10/23131). PBGC provided a memorandum that presented certain
                     statistical assertions concerning appeals pending at FY 1995, and
                     docketed, closed and pending for FYs 1996 and 1997. As a result
                     of our testing, we concluded that PBGC's assertions, as
                     summarized in its memorandum, were fairly presented.




SEPTEMBER 1998                                                               PAGE 14
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL              PENSION BENEFIT GUARANTY CORPORATION



                     In related projects, we initiated an evaluation of the efficiency and
                     effectiveness of the PBGC’s benefit determination process that
                     culminates in the issuance of IDLs to participants and impacts
                     PBGC’s PVFB liability.

                 •   The Case Administration System (CAS) and the Integrated Present
                     Value of Future Benefits System (IPVFB) are mission critical
                     systems that support the calculation of PBGC’s PVFB liability.
                     The OIG has initiated a survey to obtain an understanding of
                     processes and control structures and to perform a high level risk
                     assessment. It will document our understanding of the design
                     and operation of the two systems.

                 Projected FY 1999 Activity. We will complete our review of the
                 efficiency and effectiveness of the benefit determination process and
                 the timeliness of IDLs. We will also complete our initial audit of
                 PRISM and surveys of CAS and IPVFB. Based upon the results of
                 these reviews, we will initiate other audits of the systems as deemed
                 necessary. During the audit of PBGC’s financial statements, we will
                 review all components relating to pension liability.


             Systems Integration
             The Corporation has recognized problems in systems integration and has
             responded with short and long term solutions. Since a large portion of
             PBGC’s business is automated and depends upon the proper functioning
             of an integrated network of systems, the OIG will continue to maintain
             involvement in this area. Offering advice and technical assistance, the
             OIG will work with PBGC to help ensure an integrated network of systems
             is built, maximizing productivity while retaining sufficient controls to
             mitigate user risks. In addition, the OIG will be involved in interim
             reviews of the systems processes. The reviews will assess how the
             systems address the dynamic needs of the organization and whether the
             control structure is operating effectively.

                 FY 1998 Activity.

                 •    During the audit of PBGC’s financial statements, the PBGC’s
                      financial management systems were reviewed (see OIG Report
                      October 1, 1997 - March 31, 1998, page 2-3, 98-3/23126-2). The
                      report on internal controls noted that the financial systems
                      lacked integration, a continuing reportable condition. We found
                      that PBGC did not meet the requirements of OMB Circular A-127
                      regarding an integrated financial management system. As a
                      result, PBGC’s financial management systems did not promote
                      efficiencies in processing financial data. PBGC also lacked a
                      formal Systems Development Life Cycle Methodology (SDLC)
                      which impacted upon data conversion efforts, security
                      administration, user acceptance testing, reports definition, and
                      consistency of systems development initiatives. We also found
                      that PBGC lacked specific criteria to adequately manage its
                      systems development projects that are outsourced to external
                      vendors. Lack of systems integration inhibits management’s
                      ability to accumulate and summarize information required for
                      management decision making purposes.




SEPTEMBER 1998                                                                PAGE 15
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION



                 •     The OIG has initiated a long term review of PRISM that will
                       address (1) the adequacy of controls associated with data
                       conversion and reconciliation’s performed between PRISM and its
                       predecessor system, and (2) data integrity issues.

                 •      We are participating on a multi-departmental team to address
                        PBGC’s compliance with Year 2000 issues.

                 •      CAS and the IPVFB are mission critical systems that support the
                        calculation of PBGC’s PVFB liability. The OIG initiated a survey
                        to document our understanding of the design and operation of
                        the two systems.

                     Projected FY 1999 Activity. We will complete our reviews of the
                     PRISM, CAS, and IPVFB. We will expand our reviews of these
                     systems as necessary. We will also continue to monitor Year 2000
                     and systems integration issues during annual financial statements
                     audits.


             Integrity of Benefit Payment
             and Premium Data
             The volume of the corporation's benefit payment and premium collection
             systems make these critical areas warranting continuous monitoring by
             PBGC. With benefit payments approximating $69 million per month, and
             contractors largely involved in the process, PBGC’s monitoring function
             must be able to examine payments on a global and individual basis.

             With respect to the premium collection system, PBGC’s monitoring
             process must be sufficient to ensure payment status is captured for all
             insured pension plans and premiums are paid in the proper amount.
             Periodic monitoring should be performed to test data submitted by
             insured plans and ensure adjustments are sought when necessary.

                 FY 1998 Activity.

                 •     During the audit of PBGC’s financial statements, PBGC’s Premium
                       Accounting System (PAS) was reviewed (see OIG Report October 1,
                       1997 - March 31, 1998, page 2-3, 98-3/23126-2). We found that
                       initiatives that addressed PAS control issues for restricting and
                       monitoring access to data have resulted in improved system
                       functionality and administrative capability. However, we also
                       found that controls relating to source documentation required
                       improvement. We also found that no clear audit trail exists for
                       the tracking of PCR findings, settlements and collections to
                       amounts in PAS.

                 •     Also during the audit of PBGC’s financial statements (98-
                       3/23126-2), we tested PBGC’s calculation of the present value of
                       future benefits (PVFB) for terminated plans. We found that
                       improvements have been made in maintaining participant file
                       data. The reportable condition related to the lack of adequate
                       documentation to support the PVFB liability calculation was
                       deemed resolved based on the testing results.

                 Projected FY 1999 Activity. We plan to address broad based data
                 integrity issues and to continue our evaluation of automated


SEPTEMBER 1998                                                               PAGE 16
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION



                 premium accounting operations. Further, we are planning to review
                 participant data requirements and to evaluate PBGC’s policies and
                 methodologies regarding the collection and safeguarding of the
                 information.


             Asset Management
             With approximately $16 billion of assets, oversight over security and
             performance should be a continuous task. Many of these assets are
             managed by contractors and require an additional level of scrutiny
             concerning how and where they are invested, and whether performance
             is as expected. The Corporation needs to be proactive in establishing
             proper controls up-front, and then monitoring and reacting as necessary
             to variances which may occur.

                 FY 1998 Activity. During the annual financial statements audit,
                 selected investment managers and their investment performance were
                 reviewed (see OIG Report October 1, 1997 - March 31, 1998, page 2-3,
                 98-3/23126-2). Site reviews were performed at two of the investment
                 managers hired by PBGC and charged with the responsibility of
                 managing investments. These reviews included the contractors’
                 internal controls as they related to implementing PBGC’s investment
                 policies, completing securities transactions and investment manager
                 performance.

                 Projected FY 1999 Activity. During our audit of PBGC’s financial
                 statements, we will continue to monitor PBGC’s management of
                 assets and will continue conducting on-site reviews of selected
                 investment managers.


             With an audit staff of six professionals and limited resources for
             contracts, it is not possible to address each of the above issues in their
             entirety during the fiscal year. Rather, we will rotate or cycle certain
             aspects of each area into our annual management plans. In future
             periods, we will address other components in the same areas, thereby
             gaining entire coverage over time. The OIG critical risk issues will be
             reviewed annually with the purpose of adding significant risk functions
             as they are identified and to delete areas where risk had been reduced to
             an acceptable level.

             It is the OIG’s goal to have sufficient investigation resources available to
             adequately handle our law enforcement responsibility. For FY 1999,
             along with our current investigative staffing level, we will use contractors
             as well as “borrowed” intra- and inter-agency resources to process our
             case workload. OIG staff will continue to participate on organizational
             teams designed to improve the overall effectiveness of PBGC and will
             strive to maintain our professional relationship with all levels of PBGC
             management. In addition, we will also strive to coordinate with our
             colleagues in the Department of Labor OIG to ensure full coverage in
             areas which bridge the two agencies.




SEPTEMBER 1998                                                               PAGE 17
        SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                         PENSION BENEFIT GUARANTY CORPORATION



                                                TABLE 5

                            CROSS-REFERENCE TO REPORTING
                      REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.



  Inspector General
    Act Reference       Reporting     Requirements                                           Page


Section 4 (a) (2)       Review of legislation and regulations.                                12

Section 5 (a) (1)       Significant problems, abuses, and deficiencies.                      2 - 3,
                                                                                              10

Section 5 (a) (2)       Recommendations with respect to significant problems, abuses,        2 - 3,
                        and deficiencies.                                                     10

Section 5 (a) (3)       Prior significant recommendations on which corrective actions          4
                        has not been completed.

Section 5 (a) (4)       Matters referred to prosecutive authorities.                          11

Section 5 (a) (5)       Summary of instances where information was refused.                    4


Section 5 (a) (6)       List of audit reports by subject matter, showing dollar value of       5
                        questioned costs and funds put to better use.


Section 5 (a) (7)       Summary of each particularly significant report.                     2 - 3,
                                                                                              10

Section 5 (a) (8)       Statistical table showing number of reports and dollar value of        6
                        questioned costs.

Section 5 (a) (9)       Statistical table showing number of reports and dollar value of        7
                        recommendations that funds be put to better use.


Section 5 (a) (10)      Summary of each audit issued before this reporting period for        None
                        which no management decision was made by end of reporting
                        period.

Section 5 (a) (11)      Significant revised management decisions.                            None

Section 5 (a) (12)      Significant management decisions with which the Inspector              4
                        General disagrees.




SEPTEMBER 1998                                                                              PAGE 18
       SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




GLOSSARY
The following defines the terms used in this report.


Questioned Cost        A cost the OIG has questioned because of an alleged
                       violation of law, regulations, contract, grant, cooperative
                       agreement, or other agreement or document governing the
                       expenditure of funds; such cost is not supported by
                       adequate documentation; or the expenditure of funds for the
                       intended purpose is unnecessary or unreasonable.

Unsupported Cost       A cost the OIG has questioned because of a lack of adequate
                       documentation at time of the audit.

Disallowed Cost        A questioned cost that management, in a management
                       decision, has sustained or agreed should not be charged to
                       the government.

Funds To Be Put        Funds the OIG has identified in an audit recommendation
To Better Use          that could be used more efficiently by reducing outlays,
                       deobligating program or operational funds, avoiding
                       unnecessary expenditures, or taking other efficiency
                       measures.

Management             Management's evaluation of audit findings and
Decision               recommendations and issuance of a final decision
                       concerning management's response to such findings and
                       recommendations.

Final Action           The completion of all management actions -- that are
                       described in a management decision -- with respect to audit
                       findings and recommendations. If management concluded
                       no actions were necessary, final action occurs when a
                       management decision is issued.


Misconduct             Action of employees or contractors that violates law, rules,
                       or regulations for which corrective action is warranted.




SEPTEMBER 1998                                                                 PAGE 19
IF   YOU WANT TO REPORT OR DISCUSS CONFIDEN-
TIALLY ANY INSTANCE OF MISCONDUCT, FRAUD,
WASTE, ABUSE, OR MISMANAGEMENT, PLEASE

CONTACT THE   OFFICE OF INSPECTOR GENERAL.


You can telephone:

        The Inspector General's HOTLINE

                1-800-303-9737


Or you can write:

     Pension Benefit Guaranty Corporation
          Office of Inspector General
                P.O. Box 34770
         Washington, D.C. 20043-4770
